      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
                   Guam Waterworks Authority
                        Government of Guam




Report No. 2003-I-0072                  September 2003
                                                                           N-IN-GUA-001-01-R

                United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                1849 C Street, NW - Mail Stop 5341
                                     Washington, DC 20240


                                                                             September 30, 2003


Mr. Simon Sanchez
Chairman
Consolidated Commission on Utilities
Post Office Box 21929
GMF, Guam 96921

Subject: Audit Report “Guam Waterworks Authority, Government of Guam” (No. 2003-I-0072)

Dear Mr. Sanchez:

        This report presents the results of our audit of the Guam Waterworks Authority. The
objective of the audit was to determine whether the Guam Waterworks Authority (1) adequately
maintained and operated the water and wastewater systems, (2) effectively managed its billing
and collection functions, and (3) conducted procurement transactions in accordance with
applicable laws and regulations.

       The legislation, as amended, creating the Office of Inspector General (5 U.S.C. app. 3)
requires that we report to the Congress semiannually on all reports issued, actions taken to
implement our recommendations, and recommendations that have not been implemented.
Therefore, this report will be added to the next semiannual report. In addition, the Office of
Inspector General provides audit reports to the Congress.

       Please provide a response to this report by November 28, 2003. The response should
provide the information requested in Appendix 3 and should be addressed to the Office of
Inspector General, U.S. Department of the Interior, 1849 C Street, NW (MS-5341), Washington
DC 20240; with a copy to our Caribbean Field Office, Ron deLugo Federal Building, Room 207,
St. Thomas, VI 00802.

                                            Sincerely,



                                            Roger La Rouche
                                            Assistant Inspector General for Audits

cc: Mr. David R. Craddick, General Manager,
      Guam Waterworks Authority
[ This page intentionally left blank. ]
CONTENTS
                   Background ................................................................................... 1
INTRODUCTION
                   Objective and Scope ..................................................................... 1
                   Prior Audit Coverage .................................................................... 2


                   Overview....................................................................................... 3
RESULTS OF AUDIT   Maintenance and Operation of System ......................................... 3
                   Billing and Collection Functions .................................................. 15
                   Procurement Practices................................................................... 21


                   To the Consolidated Commission on Utilities .............................. 23
RECOMMENDATIONS



                   1. Monetary Impact....................................................................... 25
APPENDIX           2. Response to Draft Report.......................................................... 26
                   3. Status of Recommendations...................................................... 28




                                             i
[ This page intentionally left blank. ]




                  ii
INTRODUCTION
                The Guam Waterworks Authority was created as a public
BACKGROUND      corporation on July 31, 1996 through passage of Guam Public
                Law 23-119 (Title 2, Guam Code Annotated, Chapter 14).
                Previously, the utility was a line department within the Executive
                Branch known as the Public Utility Agency of Guam. The
                Waterworks Authority is responsible for the production, treatment,
                distribution, and sale of drinking water on Guam. It is also
                responsible for the collection, treatment, and disposal of
                wastewater.

                The legislation that created the Waterworks Authority provided for
                a 7-member Board of Directors, nominated by the Governor and
                confirmed by the Legislature. The Board was responsible for
                overseeing the Authority’s operations. In order to make the
                Authority more accountable to the residents of Guam, on
                March 13, 2002, the Guam Legislature passed Guam Public
                Law 26-76, which replaced the appointed boards of the Guam
                Waterworks Authority and the Guam Power Authority with an
                elected non-partisan 5-member Consolidated Commission on
                Utilities. The law empowered the Commission to appoint a
                General Manager for each utility, with the requirement that the
                persons selected had a minimum of 10 years experience in
                managing a utility similar to the one for which they were selected.
                The first elected Consolidated Commission took office on
                January 1, 2003.

                During our audit, the General Manager of the Waterworks
                Authority resigned in April 2002 and was replaced by an acting
                General Manager appointed by the Governor. The Consolidated
                Commission hired a new General Manager effective January 2,
                2003.

                The Waterworks Authority had 313 employees, of which 110
                worked in the Water Division and 71 worked in the Wastewater
                Division.   The Authority operated 110 water wells and
                70 wastewater pump stations throughout the island of Guam.


                The objective of the audit was to determine whether the Guam
OBJECTIVE AND   Waterworks Authority (1) adequately maintained and operated the
SCOPE           water and wastewater systems, (2) effectively managed its billing
                and collection functions, and (3) conducted procurement
                transactions in accordance with applicable laws and regulations.
              The scope of the audit included reviews of operational documents,
              consultant reports, expenditure data, and other records; interviews
              with Authority personnel; and site visits to selected water and
              wastewater facilities. The period covered by the review included
              fiscal years 1998 through 2002.

              Our review was made, as applicable, in accordance with the
              “Government Auditing Standards” issued by the Comptroller
              General of the United States. Accordingly, we included such tests
              of records and other auditing procedures that were considered
              necessary under the circumstances.

              As part of the audit, we evaluated the internal controls related to
              the maintenance and operation of facilities, the billing and
              collection function, and procurement practices of the Guam
              Waterworks Authority. Based on our review, we identified
              internal control weaknesses which are discussed in the Results of
              Audit section of this report.         Our recommendations, if
              implemented, should improve the internal controls in these areas.


              During the past 5 years, neither the General Accounting Office nor
PRIOR AUDIT   the Office of Inspector General has issued any audit reports on the
COVERAGE      Guam Waterworks Authority.




                                2
RESULTS OF AUDIT
                        The Guam Waterworks Authority did not:
OVERVIEW
                        ► Adequately maintain and operate water and wastewater
                          systems. We identified equipment that was inoperable and
                          facilities which were not adequately secured. Pending capital
                          improvement projects totaled $75 million. The Authority was
                          fined about $360 million for violating environmental
                          requirements; such violations also endangered the health and
                          safety of residents. Finally, the Authority lacked a framework
                          for effectively using its workforce, which contributed to poor
                          operations and to high amounts of overtime – $8.6 million for a
                          3-year period.

                        ► Take aggressive collection action on delinquent accounts
                          receivable totaling at least $12.6 million and promissory notes
                          totaling $448,480, and did not charge customers for the
                          $554,000 cost of waterline extensions.

                        ► Always comply with established procurement regulations. The
                          main deficiency we found was that the Authority split purchase
                          orders to avoid competitive procurement requirements.


                        The Guam Waterworks Authority did not adequately maintain its
MAINTENANCE AND         facilities or manage its workforce.
OPERATION OF
SYSTEMS

On-site Visits          To obtain first-hand insight into the state of the water and
Disclosed Poor          wastewater systems, we performed site visits during March to June
Conditions at           2001 to inspect Waterworks Authority facilities. During our site
Waterworks Facilities   visits we were accompanied by representatives of the Waterworks
                        Authority. What we found was an array of maintenance problems.

                        ► Pump station facilities were not properly secured, thus
                          subjecting them to vandalism and potential intentional
                          contamination (Figures 1, 2, and 3).




                                         3
Figure 1. Old Santa Rita Station – The door
to the pump room could not be closed or locked
because pipes ran through the door opening.




Figure 2. Barrigada Heights – The gate and pump house were both
unsecured, subjecting the facilities to possible vandalism.




                     4
Figure 3. Asan Springs Station – The gate and pump room were both
open, subjecting the facilities to possible vandalism.


► Pumps were not properly maintained, resulting in deteriorating
  and inoperable facilities and in the loss of water from leaks that
  were allowed to run for indeterminate amounts of time
  (Figures 4, 5, and 6).




Figure 4. Sanifa Station – Rusted pipes and pumps with standing
water visible.




                     5
Figure 5. Barrigada Heights Station – Water
gushing from outdoor pump.




Figure 6. Asan Springs Station – The two pumps on the left were not
operable because the impellers had been removed for reasons that we
were unable to determine.


► Equipment, including electrical equipment, was subjected to
  further deterioration from sitting in standing water (Figures 7
  and 8).



                     6
Figure 7. Sanifa Station – This pump was
resting in standing water and the electrical
box was unsecured.




Figure 8. Barrigada Heights Station – This electrical motor was resting
in standing water, causing an electrical hazard.




                      7
► Of 82 chlorination stations, 22 were inoperable for various
  reasons, including the unavailability of chlorine tanks
  (Figure 9).




Figure 9. Asan Springs Station – The water
chlorination system was nonfunctioning because
there were no chlorine tanks attached. Also
bags of chemicals were saturated from sitting
in water on the floor.


► Illegal hookups to the water system were evident, including
  illegal taps into fire hydrants (Figures 10 and 11).




                     8
Figure 10. Illegal Hookup – Illegal hookups were made from this water
meter on private property.




Figure 11. Illegal Hookup – A property owner had illegally tapped into
this fire hydrant that was located on his property.



As further evidence of the poor state of the water and wastewater
systems, during fiscal year 2001, the Authority received more than
13,000 water system trouble reports and more than 4,000
wastewater system trouble reports from residents and businesses
on Guam.

The Waterworks Authority needs to establish a comprehensive
preventive maintenance plan to address the types of problems
disclosed by our site visits. The poor state of facilities not only
resulted in frequent breakdowns that inconvenienced customers
and wasted precious water, but also left the facilities open to
possible contamination which could put the public’s health at risk.


                     9
Pending Capital        Although the Authority was planning to contract out the updating
Improvement Projects   of a maintenance master plan that had originally been formulated
Estimated at Almost    in 1992, we found no evidence that this had been done. One of the
$75 Million            Authority’s construction inspectors stated that there was a lack of
                       priority emphasis on preventive maintenance and that the
                       Authority’s philosophy was one of “run it until it breaks.”

                       During the audit we obtained August 2000 lists of capital
                       improvement projects that the Authority considered to be of
                       highest priority to upgrade the water and wastewater systems. The
                       list for the water system included 22 improvement projects with an
                       estimated total cost of $33.7 million. The list for the wastewater
                       system included 18 improvement projects with an estimated total
                       cost of $40.6 million. The wastewater system projects were
                       identified as a result of an “Administrative Order of Consent”
                       issued by the U.S. Environmental Protection Agency (EPA)
                       concerning violations of National Pollution Discharge Elimination
                       System permits issued by EPA for the Agana, Agat, Baza Gardens,
                       Commercial Port, Northern District, and Umatac-Merizo sewage
                       treatment plants. Some of these violation have existed since 1986.

                       Our analysis of the proposed scope of work for 10 water facility
                       capital improvement projects, totaling almost $10 million,
                       submitted to the EPA in March 2001 disclosed that, for at least 3 of
                       the 10 projects, work totaling $3.6 million was for tasks that
                       should have been part of routine maintenance of the facilities.
                       Such tasks included sonar jet cleaning, disinfection, acidification,
                       chlorination, pump replacement, and pressure release valve
                       replacement. The pressure release valves were important to the
                       proper operation of a hydraulic water system and their replacement
                       should have been performed on a routine, rotating basis – not
                       allowed to deteriorate throughout the system to the extent that their
                       replacement had to become part of a specially-funded capital
                       improvement project.


Assessed               According to available records, during the period of January 1996
Environmental          to October 2001, the Guam Environmental Protection Agency
Penalties Totaled      (GEPA) assessed penalties of about $366 million against the
More Than              Waterworks Authority for violations of environmental laws. The
$360 Million           penalties generally amounted to $5,000 per day for each day that a
                       violation existed.      However, because of the Waterworks
                       Authority’s financial inability to pay the assessed penalties, GEPA
                       was trying to work with Waterworks Authority officials to
                       determine actions that the Authority needed to take to meet the




                                         10
                      environmental standards. At the time of our audit, these efforts
                      were still in progress.


Poor Maintenance      A December 2002 complaint filed by the U.S. Department of
Affected the Health   Justice against the Guam Waterworks Authority in the District
and Well-Being of     Court of Guam charged that “the imminent and substantial
Residents             endangerment to the health and welfare of persons [was] presented
                      by: (1) the numerous and repeated discharge of untreated and
                      inadequately treated wastewater from GWA’s treatment works,
                      resulting in elevated levels of fecal coliform bacteria in both
                      surface waters and drinking water wells on Guam; and (2) serious
                      deficiencies in GWA’s public water systems, causing contaminated
                      water to be served to the public.” The complaint listed numerous
                      instances of pollutant violations throughout the period of March
                      1998 to June 2002. Further, as recently as October 2002, the
                      Authority issued a public notice directing residents to boil all
                      drinking water because of the presence of fecal coliform bacteria in
                      tested water samples.

                      A Professor of Environmental Toxicology at the University of
                      Guam explained to us that serious health risks are possible when
                      water supplies meant for human consumption and use were
                      contaminated, as when wastewater discharge seeped into the water
                      supply. Information that he provided to us explained that infection
                      could occur through ingestion of the contaminated water or
                      through direct contact, for example through a cut on the skin.
                      Pathogens that might be present in such situations include bacteria,
                      cyanobacteria, viruses, protozoa, and helminths. These pathogens
                      could cause diarrhea, typhoid fever, meningitis, hepatitis, amoebic
                      dysentery, and hookworm.

                      Poor maintenance of the water system also resulted in low water
                      pressure that forced some residents and businesses to install private
                      water tank pressurization systems at a typical cost of $2,000 per
                      residence. Further, public elementary and secondary schools on
                      Guam had to close for periods of up to nine days because of the
                      lack of water.


Optimum Staffing      The Waterworks Authority had not developed a framework for
Patterns Were Not     managing its workforce. Specifically, the Authority lacked
Established           information necessary to determine the appropriate size, skills mix,
                      and distribution of the staff needed to effectively operate the water
                      and wastewater systems. For example, the General Manager and
                      Assistant Wastewater Manager both stated that, in their opinion,



                                        11
                        the Authority had a sufficient number of staff but that the
                        employees may not have been assigned where they were most
                        needed. The Water Manager stated that there was a lack of
                        manpower to effectively operate the water system. He said that the
                        heavy workload presented by a large number of water system
                        trouble reports prevented him from developing a staffing plan for
                        his unit.

                        At the time of our review, the Authority had 110 employees in its
                        Water Division and 71 employees in its Wastewater Division, and
                        had hired a consulting firm to perform a workforce study.
                        However, the project had not been completed.


Overtime-Related        The Authority was unsuccessful in controlling overtime and other
Costs Totaled About     related costs. Although managers were concerned about the high
$8.6 Million During a   level of overtime worked by Authority employees, they expressed
3-Year Period           the view that a work ethic existed whereby employees expected to
                        work overtime to supplement their regular salaries. Therefore,
                        attempts to curtail the use of overtime were generally opposed
                        within the organization.

                        Our review of payroll records disclosed that overtime, night
                        differential, and “straight time” payments to Authority employees
                        who worked more than 40 hours per week increased from about
                        $2.1 million in fiscal year 1999 to $3.5 million in fiscal year 2001,
                        for a total of $8.6 million during the 3-year period (see Table 1).


                                        Table 1. Summary of Overtime-Related Costs
                                                             Night         Straight       Yearly
                          Fiscal Year       Overtime      Differential      Time           Totals
                             1999          $1.0 million   $1.0 million   $0.1 million   $2.1 million
                             2000          $1.4 million   $1.4 million   $0.2 million   $3.0 million
                             2001          $1.5 million   $1.5 million   $0.5 million   $3.5 million
                            Totals         $3.9 million   $3.9 million   $0.8 million   $8.6 million



                        Of special note is that some employees who worked overtime
                        hours were compensated both at the overtime rate and for
                        additional night differential pay.       Additionally, supervisory
                        personnel were compensated for overtime hours worked at their
                        normal “straight time” rates. Despite the pervasive use of
                        overtime, we did not find any written policies regarding the use,
                        approval, and control of overtime at the Authority.



                                             12
The extent to which overtime was part of the normal work ethic is
illustrated in the following examples:

► The brother of the manager of one of the Authority’s main
  units earned almost $48,000 in overtime pay during fiscal year
  2001, while his regular salary was $36,000.

► The secretary of the same manager was assigned to field repair
  work outside her area of expertise and earned about $29,000 in
  overtime pay during the period of August 1999 to July 2001.

► The average overtime pay earned by 18 of 23 employees in the
  same unit during fiscal year 2001 was $11,713. The other
  5 employees in the unit each earned $800 or less in overtime
  pay.

We reviewed a sample of 60 trouble reports and related payroll
records and held discussions with supervisory personnel regarding
the nature of the reported problems and the required repair work.
We determined that, in 57 cases with overtime and other premium
pay totaling $46,100, the necessary work could have been
performed without the need for overtime, night differential, or
other premium pay. For example, six Authority employees were
paid for a total of 48 overtime hours and 18 night differential hours
to monitor water wells on New Years Day 2002. The Assistant
Water Manager told us that this monitoring was a routine,
recurring task that could have been scheduled to avoid the need for
overtime or night differential pay. We also noted 11 instances
where the Water Manager and the Superintendent were both
present at the same work site to supervise the work crews and
earned overtime pay. The Assistant General Manager for
Operations told us that there was no need for both of these
management officials to be present to supervise the work crews
who were responding to the trouble reports.

Another factor that contributed to the excessive use of overtime
was the lack of a job order system capable of capturing all costs
associated with specific projects. Overtime costs were accumulated
by organizational unit, but not on a project-by-project basis. The
Authority’s Comptroller stated that she did not have the staff
resources to perform cost analyses or economy and efficiency
reviews of various operations or categories of costs. For example,
she stated that during fiscal years 2000 and 2001, the Authority
expended about $4.2 million for the rental of equipment, but there
was no justification for these rentals. We believe that if the
Authority had an internal audit unit, it could perform cost analyses



                  13
                          to help the Authority to control excessive overtime, equipment
                          rental, and other costs. The establishment of an internal audit unit
                          was recommended repeatedly by the Authority’s independent
                          auditors as part of the annual financial statement audits.


All Technical Staff Did   Technical staff in the Authority’s Water and Wastewater Divisions
Not Have Required         did not have the certifications required by GEPA. The GEPA
Certifications or         certification requirements for water utility entities have existed
Necessary Training        since September 1978, and provide the specific criteria against
                          which personnel operating water and wastewater systems are to be
                          examined, rated, and certified. In addition the Guam Civil Service
                          Commission established certification requirements in January
                          2002. We found that only 4 of 108 technical employees in the
                          Water Division and 3 of 66 technical employees in the Wastewater
                          Division possessed the necessary training and certification.
                          Certification is important because it provides objective evidence
                          that the individuals have completed a prescribed course of study
                          and possess the technical skills necessary to carryout their job
                          duties in a safe and effective manner.

                          In a related area, the Authority did not have a comprehensive plan
                          to ensure that employees received the continuing professional
                          training necessary for them to effectively perform their job duties.
                          The Authority spent $31,951 for 34 training classes in fiscal year
                          2000, $81,591 for 103 training classes in fiscal year 2001, and only
                          $1,385 for 4 training classes in fiscal year 2002. Additionally,
                          almost all of the training that was presented was on administrative
                          and management functions, not the technical aspects of operating
                          water and wastewater facilities. The Water Manager and the
                          Assistant Wastewater Manager both told us that their training
                          budgets were cut each year. The Authority’s Management Analyst
                          added that the training budgets were cut because they did not
                          contain the details necessary to support the requested funding
                          levels.

                          The Authority’s Training Specialist told us that the Authority had
                          been working with the Guam Community College since June 2001
                          to establish a 2-year training program addressing the technical
                          skills needed for water and wastewater employees. The cost for
                          the proposed training program was estimated at about $273,200 for
                          80 employees (an average of $3,415 per trainee). As of early
                          2002, the program had not been established.




                                            14
                         The Guam Waterworks Authority did not adequately manage its
BILLING AND              billing and collection functions and, as a result, had not recovered
COLLECTION               revenues of at least $13.6 million.
FUNCTIONS


Accounts Totaling        The Waterworks Authority did not aggressively and consistently
$12.6 Million Were 120   collect on accounts that were 120 or more days in arrears. As of
Days or More in          September 30, 2002, the Authority had $12.6 million1 in
Arrears                  outstanding receivables 120 or more days in arrears. However,
                         because the Revenue Protection Unit did not aggressively
                         follow-up on overdue accounts, the amount of inactive delinquent
                         accounts increased from $7.8 million in fiscal year 2001 to
                         $9.0 million in fiscal 2002, an increase of about $1.2 million.

                         The Waterworks Authority’s Controller stated that the Revenue
                         Protection Unit had not been properly managed, which prompted
                         legislative oversight hearings in March 2001. The Controller said
                         that in November 2001, as a result of the legislative hearings, she
                         assigned her assistant to manage the Revenue Protection Unit.
                         However, in July 2002, the manager was reassigned to a special
                         project related to Typhoon Chata’an, which required her to assume
                         full responsibility for managing the unit in addition to her duties as
                         Controller. Subsequently, a Special Program Coordinator was
                         assigned to supervise the Unit. We also noted that organizationally,
                         the Revenue Protection Unit was under the supervision of the
                         Assistant General Manager of Operations. However, the Assistant
                         General Manager’s office was physically located at another
                         Waterworks Authority facility, which did not lend itself to direct
                         oversight of the Unit’s activities

                         Four areas that also demonstrate the need to improve collection
                         efforts are: enforcement of promissory notes, follow-up on
                         undelivered customer bills, assignment and training of collection
                         staff, and timeliness of referrals to collections agencies.


Promissory Notes for     As of March 19, 2002, there were 389 promissory notes totaling
$448,480 Were Not        $448,480 for overdue customer bills. However, some customers
Enforced                 were not current in payment of their promissory notes. This
                         resulted from the lack of timely follow-up with customers when
                         payments were overdue.

                         The Guam Administrative Rules and Regulations (Title 28,
                         Section 2108(f)) state that the Authority can place customers with

                         1
                          The $12.6 million included active accounts totaling $3.6 million that were 120
                         days or more in arrears and inactive accounts totaling about $9.0 million.


                                             15
delinquent accounts under deferred payment plans whereby they
could make installment payments to pay off their delinquent
accounts while at the same time avoiding disconnection. If the
customers defaulted, they were subject to immediate disconnection
and the Authority would have to initiate additional efforts to
collect the amounts due. However, we found that even though
many of the customers with defaulted notes had their water service
disconnected, the Authority did not take any further action to
collect the delinquent amounts.

Of the 389 promissory notes, we judgmentally selected for review
42 accounts with individual balances of $2,000 or more and a
combined balance of $254,359. We found that 20 of the
42 accounts, with a combined balance of $83,876, were in default
of the promissory notes and had been disconnected. For the
remaining 22 accounts that still had water service, 10 were in
default of the promissory notes and 12 were current with their
installment payments. For the 20 accounts that had water service
disconnected, there was no additional follow-up effort by the
Revenue Protection Unit to collect the outstanding balances. For
example, a customer signed a $9,221 promissory note on
August 17, 2001 for five monthly payments of $800 and a $5,221
payment in the sixth month. The customer’s account showed that
water service was disconnected in November 2001 and only one
payment of $500 was made in May 2002. As of September 2002,
the account was listed as inactive.

In our opinion, another factor contributing to customers’ default on
promissory notes was the lack of analysis of the customers’
financial ability to pay when determining the amount of monthly
payments and the associated payment periods. Instead, monthly
payment amounts were determined based on an unwritten policy
(in effect since 1997) that limited the payment periods to 6 months.
In supporting this unwritten policy, the supervisor of the Revenue
Protection Unit stated that all the customers had agreed to the
terms of their promissory notes by virtue of having signed the
agreements. However, the 71 percent default rate (30 out of
42 accounts) for the promissory notes we reviewed suggests that
the customers’ ability to make the stipulated monthly payments
may have been in doubt from the beginning. We believe that, at
the very minimum, the Waterworks Authority should develop
procedures and guidelines to analyze the individual customers’
financial condition and then tailor the monthly payment amounts
and payment periods to what the customers can afford.




                  16
304 Customer Bills      During April 2002, 304 customer bills with current charges
With Current Charges    totaling $13,232 were returned by the U.S. Postal Service as
Totaling $13,232 Were   undeliverable. Of the 304 accounts with undelivered bills, 254 had
Undeliverable           delinquent balances totaling $183,108, for a total billed amount of
                        $196,340.

                        Although it was established policy for the Revenue Protection Unit
                        to call customers with returned bills to obtain their correct mailing
                        addresses, the supervisor of the Unit stated that it was the
                        customers’ responsibility to follow-up if they did not receive their
                        monthly bills. In addition, the supervisor said that the defaulted
                        accounts would be subject to immediate disconnection if they were
                        more than 90 days in arrears.

                        However, we found that only 62 (24 percent) of the 254 delinquent
                        accounts for which bills were returned were on the disconnection
                        lists for May and/or June 2002. Further, we reviewed 18 of
                        49 accounts with individual outstanding balances of $1,000 or
                        more and found that 10 of these 18 accounts were not on the
                        disconnection list and only 4 of the 18 customers had been
                        contacted during May 2002.

                        We believe that the ineffective use of staff resources was a
                        contributing factor to poor collection efforts. For example, in
                        February 2002, there were six employees assigned to the Revenue
                        Protection Unit. However, two of the six were attending the
                        University of Guam on a full-time basis, which effectively reduced
                        the staff to four. By November 2002, there were five employees
                        assigned to the Revenue Protection Unit, but only two were
                        available full-time. Two of the five employees were detailed to
                        non-collection duties and one was attending college. In our
                        opinion, the collection of revenues is too critical to the Authority’s
                        financial survival for the Revenue Protection Unit to have
                        employees unavailable for collection duties because they were
                        attending college or were assigned to non-collection activities. We
                        also observed that the Unit’s supervisor did not monitor collection
                        activities of the staff and did not establish job goals or performance
                        measurements, such as a minimum number of delinquent
                        customers to be contacted on a daily or weekly basis.

                        Further contributing to the Waterworks Authority’s weak efforts
                        was the absence of collection training for the staff. The manager
                        of one of the private collection agencies used by the Authority
                        stated that she had offered to train the Revenue Protection Unit’s
                        staff, but the offer was not acted upon. The manager also said that
                        she monitored her staff’s caseload and performance, and that



                                          17
                      compensation of her collectors was based on the amount of money
                      they collected. The manager of another private collection agency
                      stated that constant contact with delinquent customers was the key
                      to successful collection efforts, whether accounts were current or
                      several years old.


Outside Collection    In March 2001, the Waterworks Authority assigned inactive
Agencies Were Not     accounts to the two collection agencies in an attempt to collect
Used to Greatest      17,093 inactive accounts, dating from 2000 and prior years, with
Effect                outstanding balances totaling $7.5 million. In October 2002, the
                      Authority assigned to the collection agencies an additional
                      2,351 inactive accounts, for fiscal year 2000, with outstanding
                      balances totaling $1.5 million. As of August 2002, the collection
                      agencies were able to collect a total of about $607,000, or only
                      8 percent of the $7.5 million assigned to them in March 2001.

                      The manager of one of the collection agencies stated that the
                      national average for collecting accounts that were no more than
                      90 days old was 80 percent or higher, and that the sooner the
                      accounts are given to a collection agency, the higher the potential
                      collection rate. The Waterworks Authority’s Controller stated that
                      it was the Controller’s policy to keep the accounts that were
                      outstanding for one year or less and have the Revenue Protection
                      Unit try to collect on these accounts. However, keeping delinquent
                      accounts for a year or more before forwarding them to the
                      collection agencies made collection efforts more difficult and in
                      some cases impossible.

                      The single biggest effect of the lack of effective collection effort
                      was the existence of inactive accounts with outstanding balances
                      totaling almost $9.0 million as of September 30, 2002. We believe
                      that delinquent accounts should be turned over to the collection
                      agencies as soon as they exceed 120 days of delinquency.


An Average of 4,400   In an effort to save personnel costs, in fiscal year 1999 the
Water Meters Were     Waterworks Authority contracted with the Guam Power Authority
Unread Each Month     to have water meters read by Power Authority personnel at the
                      same time that electrical meters were read. The Waterworks
                      Authority paid the Power Authority an average of $262,000 per
                      year for this service. However, Power Authority personnel could
                      not read all the meters each month due to several factors, the most
                      important of which was the meter readers’ inability to locate the
                      meters. We found that, on average, about 4,400 out of 26,000
                      water meters (17 percent) were unread each month. As a result,



                                        18
                      the Waterworks Authority had to issue estimated water bills to
                      these customers. In June 2002, a 3-person Waterworks Authority
                      team went out to locate the unread meters and take actual readings.

                      However, even after locating the meters, there was no follow-up to
                      show the Power Authority meter readers where the meters were
                      located. As a result, the same meters would again be identified as
                      unreadable in subsequent months. For example, during March
                      2002, the water meter for a church was identified as unreadable
                      because it could not be located. Waterworks Authority personnel
                      subsequently located the meter, but did not notify the Power
                      Authority of its location. As a result, in April 2002 the meter was
                      again considered unreadable by the Power Authority. Considering
                      that the Water Authority paid the Power Authority about $262,000
                      per year to read water meters and incurred an additional $78,000 in
                      June 2002 for the personnel costs of the 3-person team, we believe
                      it was incumbent on the Water Authority to permanently resolve
                      the problem of unread water meters.


Waterline Extension   Contrary to Waterworks Authority regulations, the costs related to
Fees of At Least      installing waterline extensions was not billed to the benefiting
$554,488 Were Not     customers. Instead, the Authority absorbed the costs incurred to
Billed                install the waterlines. We estimated that for the period of
                      October 1, 1997 to February 15, 2001, the Authority absorbed
                      waterline extension costs totaling $554,488 that should have been
                      billed to the benefiting customers. The Guam Administrative
                      Rules and Regulations (Title 28, Sections 2105 and 2118) requires
                      the Authority to charge customers for the cost of installing water
                      and sewer line extensions and the installation of service to
                      undeveloped areas.

                      According to established procedures, customers who need to
                      connect their residences or businesses to a main waterline have two
                      options: (1) hire a contractor to install the necessary extension
                      pipes, subject to inspection by the Authority’s Permits and
                      Inspections Section or (2) have the Authority perform the
                      installation. For both options, the application process starts at the
                      Permits and Inspections Section, which serves as a clearinghouse
                      to review the proposed extension for compliance with the technical
                      specifications for tapping into a main waterline and to provide a
                      permanent record of where the extension was to be placed. In
                      addition, for the second option of doing the work in-house, the
                      Permits and Inspections Section serves as a control point for
                      initiating in-house job orders, controlling the work performed, and
                      ensuring that the cost of the completed waterline extensions are



                                        19
billed to the customers. Additionally, for the in-house option, the
customer would be required to make an initial payment prior to the
Authority starting the installation work. Despite these procedures,
we found that waterline extensions were routinely installed by the
Waterworks Authority without charge to the customers.

We identified 52 waterline extensions that were completed during
the period of October 1997 to September 2001 at a total cost of
$554,488. The Waterworks Authority had not collected any
money from the customers for the completed extensions or
advance fees for additional pending extensions. For example, in
July 2000, the Water Construction Section installed a 2,780-linear
foot 2-inch waterline extension to a private business in Talofofo
(Job Order 00-25232) at a cost of $20,689. The Permits and
Inspections Section had the application for this waterline extension
on file, but there was no record of the customer having made a
down-payment or being billed for the total cost of the extension.

The supervisor of the Permits and Inspections Section stated that it
had been the practice not to charge customers for the cost of
waterline extensions. The supervisor also stated that no waterline
extension applications for in-house work had been processed since
the Authority’s General Manager issued a February 15, 2001
memorandum stating that customers are required to pay the cost of
in-house waterline extensions. However, we determined that
waterline extensions were still being installed by the Water
Construction Section without charge to customers. Specifically,
seven job orders for $160,908 were completed after the February
15, 2001 memorandum and were not billed to the customers.

In addition, the procedures for establishing job orders was
bypassed and the Permits and Inspection Section did not have any
record of the seven projects. For example:

► The Water Construction Section completed Job Order
  00-25238 in August 2001 for a 340-linear foot waterline
  extension at a cost of $2,861. The Permits and Inspection
  Section had no record of this extension being requested or
  approved, and there was no record of the customer having
  made any payment for the completed work.

► The Water Construction Section installed a 7,780-linear foot
  6-inch waterline in the Urunao Project under Job Order
  01-25240. The work started on October 5, 2001 and cost the
  Waterworks Authority approximately $102,044 for labor,
  materials, and equipment rentals. The work included the



                  20
                  installation of fire hydrants for multiple tracts of undeveloped
                  privately owned land.

              On May 17, 2002, the Authority’s acting General Manager
              approved the installation of an additional 8,000-linear feet of
              waterline for private property in the Urunao area at an estimated
              cost of $280,847.

              The Guam Administrative Rules and Regulations (Title 28,
              Sections 2105(m) and 2115) require that landowners pay for the
              installation of water and sewer lines, including fire hydrants, on
              undeveloped property. However, we could not find complete
              records at the Waterworks Authority for either the initial
              7,780-foot extension or the second 8,000-foot extension at Urunao
              to determine on whose land the waterline extensions were
              installed, the actual location of the lines, and if the property owners
              had been billed for their pro-rata share of the costs incurred. The
              available records were incomplete and fragmented between the
              Construction Section and the Engineering Section.

              We asked the Authority’s former General Manager, who had
              approved the initial 7,780-foot extension work, why the Authority
              did not pass on the installation costs to the individual land owners,
              as required by Authority regulations. The former General Manager
              stated that it had been the practice to provide free waterline
              extensions to customers. The current acting General Manager
              approved the additional 8,000-foot extension as part of the existing
              project.

              It is common in the United States for county and city governments
              to improve roads and other infrastructure for landowners, with the
              cost of these improvements being passed on through special
              assessments added to the individual landowners’ annual property
              taxes. Since there is no provision for special assessments in
              Guam’s property tax laws, the Waterworks Authority should have
              assessed the landowners individually for the pro-rata share of the
              installation costs of waterline extensions. If necessary, collection
              could have been spread out over a specified monthly period. This
              type of cost recovery plan would conform to existing regulations
              and provide needed revenue for the Authority.


              The Guam Waterworks Authority did not always follow
PROCUREMENT   established procurement policies. Specifically, our review of a
PRACTICES     sample of 86 purchase orders totaling $2.2 million (out of a
              universe of 1,277 purchase orders totaling about $8.8 million)



                                21
disclosed that 20 of the purchase orders (25 percent) totaling about
$316,300 represented either large orders that were split into
smaller purchases in order to circumvent the competitive
procurement requirement (19 cases) or after-the-fact purchases in
which the purchase orders were prepared after the goods had
already been received (1 case).

We also found that a $173,000 contract for installation of a
computerized payroll system was issued without evidence of
competition.

As a result, the Waterworks Authority violated the requirements of
the Guam Procurement Regulations, and there was no assurance
that the Authority received the best quality goods or services at the
most advantageous prices possible.




                  22
RECOMMENDATIONS
                We recommend to the Consolidated Commission on Utilities
TO THE          require the General Manager of the Guam Waterworks Authority
CONSOLIDATED    to:
COMMISSION ON
UTILITIES            1. Assess the repair and maintenance needs of the Authority,
                and establish and implement a comprehensive maintenance
                program that addresses existing needs and puts in place a
                preventive maintenance program to keep the Authority’s water and
                wastewater facilities in working order.

                       2. Perform a comprehensive staffing analysis of the
                Authority to identify the optimum staff size, mix of skills, and
                distribution of staff for the Authority’s various units, and take the
                necessary action to implement the recommendations of the staffing
                analysis.

                     3. Establish and implement formal policies and procedures
                to control the use of overtime. This policy should include
                guidelines for when overtime is appropriate, a formal procedure for
                the prior approval of overtime work, and a description of the
                allowable premium pay rates for overtime work.

                      4. Establish and implement formal policies and procedures
                to ensure that the Authority’s staff meets the certification
                requirements of the Guam Environmental Protection Agency and
                the Guam Civil Service Commission within a reasonable
                timeframe.

                      5. Establish and implement a formal continuing professional
                training program for the Authority’s technical staff that will allow
                them to achieve the skills necessary to be certified in accordance
                with the policies established pursuant to Recommendation 9 and
                maintain a satisfactory level of competence as technology changes
                over time.

                      6. Review all outstanding accounts, and develop and
                implement a written plan of action to collect the outstanding
                amounts due. This plan of action should include more timely use
                of outside collection agencies to collect on bills that are delinquent
                more than 90 days.

                     7. Provide formal training to the collection staff, and
                develop and implement written operating procedures to assist the



                                  23
              Revenue Protection Unit to improve its collection process and
              minimize the amount of outstanding receivables.

                    8. Review current staffing patterns to ensure that all
              employees in the Revenue Protection Unit are engaged full-time in
              the collection of outstanding accounts receivable.

                    9. Establish reliable and current customer contact
              information and mailing addresses in the customer information
              system.

                  10. Establish a partnership program between the Customer
              Billing Unit with the Guam Power Authority Meter Reader Unit to
              locate and read problematic water meters.

                  11. Assess and collect the appropriate fees for waterline
              extensions installed by the Authority in accordance with provisions
              of the Guam Administrative Rules and Regulations.

                  12. Require Authority officials to conduct procurement
              activities in accordance with the requirements of the Guam
              Procurement Regulations.

                  13. Establish an adequately-staffed internal audit unit within
              the Authority that reports directly to the Board of Directors and
              performs reviews of Authority operations to identify opportunities
              for increasing revenues and decreasing costs of operations,
              strengthening internal controls, and other operational efficiencies.


              The Guam Waterworks Authority’s September 12, 2003, response
AUTHORITY’S   (see Appendix 2) to the draft report concurred with
RESPONSE      Recommendations 1 to 8 and 10 to 11, and included supplemental
              documentation to show that corrective actions either had been or
              were being taken. However, the response did not address
              Recommendations 9, 12, and 13. Accordingly, we consider
              Recommendations 1 to 8 and 10 to 11 to be resolved and
              implemented, and Recommendations 9, 12, and 13 to be
              unresolved (see Appendix 3).




                                24
APPENDIX 1 - MONETARY IMPACT

FINDING AREAS                           Unrealized      Funds To Be
                                        Revenues*    Put To Better Use*

Overtime Expenses                                       $8,600,000

Accounts Receivable                    $12,598,370
Promissory Notes                           448,480
Undelivered Bills                           13,232
Unread Water Meters:
  Power Authority                                          262,000
  Task Force Salaries                                       78,000
Waterline Extensions                      554,488

   Totals                              $13,614,570      $8,940,000




__________
* All amounts represent local funds.




                                               25
APPENDIX 2 – RESPONSE TO DRAFT REPORT




                     26
     APPENDIX 2
       Page 2 of 2




27
APPENDIX 3 – STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference              Status                       Action Required

        1 to 8           Implemented.        No further response required.

          9              Unresolved.         Consider the recommendation and provide a
                                             response that states concurrence or
                                             nonconcurrence. If concurrence is stated,
                                             provide a corrective action plan that includes
                                             the target dates and titles of the officials
                                             responsible for implementation of the
                                             recommendations.

       10 to 11          Implemented.        No further response required.

       12 to 13          Unresolved.         Consider the recommendation and provide a
                                             response that states concurrence or
                                             nonconcurrence. If concurrence is stated,
                                             provide a corrective action plan that includes
                                             the target dates and titles of the officials
                                             responsible for implementation of the
                                             recommendations.




                                        28
                           How to Report
               Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone—Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:        U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 5341-MIB
                          1849 C Street, NW
                          Washington, DC 20240
             Phone:       24-Hour Toll Free               800-424-5081
                          Washington Metro Area           202-208-5300
                          Hearing Impaired (TTY)          202-208-2420
                          Fax                             202-208-6081
                          Caribbean Field Office          340-774-8300
                          Hawaiian Field Office           808-525-5310
             Internet:    www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
